Number

In The

Supreme Court of the United States
Samuel Collin Robinson,
Petitioner
v.

Katherine Lyman Robinson,
Respondent
FILED
AUb 1 0 2019
On Petition for a Writ of Certiorari
to the Colorado Court of Appeals

§nPRFMEFCTOURS'LUfSK_.

PETITION FOR WRIT OF CERTIORARI

Samuel Collin Robinson
Petitioner
Post Office Box 4033
Grand Junction, CO 81502
(970) 314-9106

n

Question Presented For Review
Where divorce involves children, where shared
parenting has been declared to be in the best
interests of all, and where criteria for exception have
not been met, does disproportionate allocation of
parenting time honor the constitutional requirement
that equal protection of law be given to the rights of
the children to time with each parent?

Parties to the Proceeding
All parties to this proceeding are named by the
caption of the case on the cover page. Katherine
Lyman Robinson has remarried, taking the surname
Freeman.

n

Table of Contents
Opinions Below

1

Jurisdiction

1

Constitutional and Statutory Provisions

2

Statement of the Case

2

Reasons for Granting the Writ

4

Conclusion

8
Appendices

A- Order of the Colorado Supreme
Court............................................

10

B- Order of the Colorado Court of
Appeals.......................................

11

C- Order of the District Court for Mesa
County..................................................

22

D: Order of the Hearing Magistrate

24

E: C.R.S. 14-10-124

53

in

Table of Authorities Cited

Cases
Cleburne v. Cleburne Living Center, Inc.,
473 U.S. 432, 439 (1985).......................... .
Village of Willowbrook et al. v. Olech,
528 U.S. 562, 564 (2000)......................

5

5-6

Statute
Colorado Revised Statutes 14-10-124

6

Other
Constitution of the United States,
Amendment Fourteen, Section One

IV

6

In The
Supreme Court of the United States
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of
certiorari issue to review the judgments below.

Opinions Below
The opinion of the highest state court to review
the merits, the Colorado Court of Appeals, appears
as Appendix B to the petition and is unpublished.
The opinion of the Colorado Supreme Court
appears as Appendix A to the petition and is
unpublished.

Jurisdiction
The date on which the highest state court, the
Colorado Supreme Court, decided this case was May
20th, 2019. A copy of that decision appears as
Appendix A.
The jurisdiction of this Court is invoked under
28 U.S.C. § 1257(a). 28 U.S.C. § 2403(b) may apply.

1

Constitutional and Statutory Provisions
The Constitution of The United States of America,
Amendment Fourteen, Section OneAll persons born or naturalized in the United
States and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States! nor shall
any State deprive any person of life, liberty, or
property, without due process of law! nor deny to any
person within its jurisdiction the equal protection of
the laws.
Colorado Revised Statutes § 14-10124The statute is lengthy. The relevant portions
appear as Appendix E.
Statement of the Case
Katherine Freeman, formerly Katherine Lyman
Robinson, is the: Respondent, here and before the
Colorado Supreme Court! Appellee, before the
Colorado Court of Appeals! and Petitioner, in District
Court.
Samuel Collin Robinson is the: Petitioner, filing
this request for review and the petition to the
Colorado Supreme Court! Appellant, before the
Colorado Court of Appeals! and Respondent, in
District Court.
Katherine and Collin were married in 2005. A
daughter, Grace, and a son, Gordon, were born to the
couple after their marriage. In 2012, Katherine and
2

Collin divorced. The Parenting Plan specified joint
decision-making and provided that the children
would spend about a quarter of the time with their
dad, Collin, and the balance with their mom,
Katherine.
In 2016, Collin Robinson filed a motion to
modify parenting time to an equal schedule,
alternating by week. Katherine Freeman responded
to the motion by requesting sole decision-making and
a parenting plan that would reduce the amount of
time the children could spend with their father to
about an eighth of the time.
After a hearing in 2017, Magistrate Stephanie
Rubinstein issued an order perpetuating the unequal
parenting time schedule. Appendix D, at pp 44-45.
The magistrate mentioned concerns that arose
during consideration of the case, but did not reach a
finding that equal parenting time would endanger
the children. Instead, Rubinstein found it clear that
the children love their dad and want to spend time
together. Appendix D, at p 44.
Robinson petitioned for judicial review of the
disproportionate allocation, citing several
deficiencies, including violation of equal protection.
Having concluded review in January of 2018, District
Court Judge Thomas William Ossola denied relief.
Appendix C.
Robinson appealed to the Colorado Court of
Appeals, again citing deficiencies, including denial of
equal protection. On January 3rd, 2019, the Court of
Appeals declined to grant relief, stating that since

3

the statute governing determination of parenting
time does not create a classification, no valid equal
protection issue was presented. Appendix B, at p 2021.
Robinson petitioned the Colorado Supreme
Court for a writ of certiorari, reiterating the equal
protection claim, based on the lopsided result of
faulty application of the statute. The petition was
rejected May 20th, 2019. Appendix A.
The present petition requests that the
Supreme Court of the United States grant certiorari
review of the equal protection claim.
Reasons for Granting the Petition
Parenting time is allocation of opportunity for
minor children of divorce to be with each parent.
Constitutionality of division of time, in the best
interests of children, is an inquiry worthy of the
attention of the Supreme Court of the United States,
because such decisions have fundamental impact on
the lives of a multitude of people1. Research
indicates that forty-five states have adopted some
form of best interests statute2, such as the law used

1 Census data indicate that two thirds of people marry (Marital
Status of People 15 Years and Over, by Age, Sex, and Personal
Earnings^ 2018). The National Vital Statistics System reports a
rate of divorce and annulment that is over four tenths of the
rate of marriage (ratio of provisional rates, 2017). Many
couples that divorce have children and such cases often go
before local courts, setting the tone for those that settle.
2 Bajackson, Erin. (2013). "Best Interests of the Child - A
Legislative Journey Still in Motion." Journal of the American
Academy of Matrimonial Lawyers, Vol. 25, pp 311-355 at 348.

4

in this case. Similar laws are also in use across the
globe.
A foundation of equity for parenting time
decisions is vital to the integrity of the social fabric of
humanity. Equal Protection is a constitutional
mandate, interpreted by the Supreme Court.
“The Equal Protection Clause of the
Fourteenth Amendment...is essentially
a direction that all persons similarly
situated should be treated alike.”
Cleburne v. Cleburne Living Center,
Inc., 473 U.S. 432, 439 (1985), citation
omitted.
The children in this case are in a situation
similar to that of most children of divorce, yet, the
orders below give different treatment to them than
the treatment prescribed for most circumstances.
The Colorado Court of Appeals found that the
underlying statute does not create a classification, so
no valid equal protection issue was presented. Such
hurried disposition of the question is contrary to
Supreme Court precedent establishing that equal
protection claims need not cite classification.
"Our cases have recognized successful
equal protection claims brought by a
“class of one, ” where the plaintiff
alleges that she has been intentionally
treated differently from others similarly

5

situated and that there is no rational
basis for the difference in treatment. In
so doing, we have explained that “'[t]he
purpose of the equal protection clause of
the Fourteenth Amendment is to secure
every person within the State's
jurisdiction against intentional and
arbitrary discrimination, whether
occasioned by express terms of a statute
or by its improper execution through
duly constituted agents.'”" Village of
Willowbrook et al. v. Olech, 528 U.S.
562, 564 (2000), citations omitted.
The law in question, Colorado Revised Statute
14-10-124 starts with a declaration by the Colorado
General Assembly that, in most circumstances, it is
in the best interests of all to encourage frequent
continuing contact between each parent and the
children, effectuated by sharing parenting
responsibilities. The assembly provides for
parenting time to be determined in the best interests
of the children, as is their right, and requires that
the court make findings on the record giving reasons.
Urging parents “to share...rights and
responsibilities of child-rearing...”, the assembly uses
“share” without any modifier. There is nothing
indicative of imbalance. Instead, “frequent and
continuing contact” with “each parent” is encouraged.
Although the word “equal” is not explicit in the text,
equality is required for optimal achievement of
contact with each parent in the “best interest of all”.
Between parents, equal before the law, equal shares
6

of time are indicated. Shared parenting is declared
to be in the best interest of the children and their
parents, and is the prescribed treatment for most
circumstances.
Exceptions are defined by (l.5)(a), specifying
that time not be allocated according to best interests
where the court finds that it would endanger the
children’s physical health or significantly impair
their emotional development. Ensuring that the
exceptions not be invoked lightly, the assembly
requires that in any order imposing or continuing a
parenting time restriction, the court enumerate the
specific factual findings supporting the restriction
and conditions that the restricted party may fulfill in
order to seek modification of the parenting plan.
The statute also lists best interest factors to be
considered by the court; however, it does not give
criteria for evaluation of the factors. There are
neither standards for assessment of evidence, nor
guidance for balancing advantages. The terms are so
broad as to invite arbitrary execution.
In the present case, the hearing magistrate
considered the statutory factors. Appendix E, pp 5455, Appendix D, pp 33*45. She noted concerns about
mental health and anxiety; however, the magistrate
did not reach a finding of endangerment of physical
health or of significant impairment of emotional
development of the children. The magistrate did not
find that there was credible evidence of child abuse
or neglect. Appendix D, pp 33*34. The magistrate
did find it to be clear that the children love their dad,

7

and found that there was credible evidence that they
want to spend time together. Appendix D, pp 44.
Since the statutory exceptions were not
triggered, the situation of the children here,
regarding their eligibility to have parenting time
allocated in their best interests and their best
interests being declared by the legislature to be
served by shared parenting, is the same as that of
most children of divorce. Still, the magistrate
ordered perpetuation of a schedule that restricts
their opportunity to be with their dad to less than
one quarter of the time, instead of the equal share
prescribed and sought.
As reason for denying modification of the
parenting plan to an equal schedule, Rubinstein
stated there was not adequate evidence the change
would benefit the children. Appendix D, p 44. Her
rationale ignored statutory declaration that shared
parenting is in the best interests of the children.
Findings of the hearing did not trigger exception.
Therefore, disparate allocation constitutes improper
execution of the statute. The result denies equal
protection by assigning Grace and Gordon different
parenting time proportions than prescribed for
children of like circumstance.

Conclusion
Parenting time is a fundamental interest of
children that merits equal protection of law.
Although the situation of the children in this case is
similar to the situation of most children of divorce,
these children have been subjected to different

8

treatment. The relevant Colorado statute, §14-10
124, was not executed in proper manner. For most
circumstances, the statute urges shared parenting.
Although exception was not warranted, equal
opportunity for the children in this case to be with
each parent was denied by the opinions below. The
lopsided result is unconstitutional. Justice requires
reversal. A strong precedent on this topic from the
highest court in the land will mend the framework
that supports personal growth of children and their
development of relationships that are essential to the
longevity, success, and perpetuation of our free
republic. For these reasons, please grant this
petition for a writ of certiorari. Thank you!
Pled with respect and gratitude,

Samuel Collin Robinson
Petitioner

Date

9

Colorado Supreme Court
2019SC123
Certiorari to the Court of Appeals, 2018CA265
District Court, Mesa County, 2012DR18
In re the Marriage of
Petitioner, Samuel Collin Robinson
and
Respondent, Katherine Lyman Robinson

ORDER OF COURT
Date Filed: May 20, 2019

Upon consideration of the Petition for Writ of
Certiorari to the Colorado Court of Appeals and after
review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of
Certiorari shall be, and the same hereby is,
DENIED.
BY THE COURT, EN BANC, MAY 20, 2019

10

Appendix A

